             EVALUATION REPORT


 Information Security Risk Evaluation of Region IV – Arlington, TX


               OIG-13-A-07 December 20, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                  WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL




                                                   December 20, 2012



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    INFORMATION SECURITY RISK EVALUATION OF
                            REGION IV – ARLINGTON, TX (OIG-13-A-07)


Attached is the Office of the Inspector General’s (OIG) evaluation report titled,
Information Security Risk Evaluation of Region IV – Arlington, TX.

The report presents the results of the subject evaluation. The agency agreed with the
evaluation findings at the September 21, 2012, exit conference, and provided comments
which were incorporated, as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5911.

Attachment: As stated
                         Information Security Risk Evaluation of
                               Region IV – Arlington, TX




                               Contract Number: GS-00F-0001N
                               NRC Order Number: D12PD01191

                                                 December 17, 2012




The views, opinions, and findings contained in this report are those of the authors and should not be construed as an official Nuclear Regulatory
                       Commission position, policy, or decision, unless so designated by other official documentation.
[Page intentionally left blank]
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX


EXECUTIVE SUMMARY


BACKGROUND

      The U.S. Nuclear Regulatory Commission (NRC) Office of the Inspector General tasked
      Richard S. Carson & Associates, Inc., to perform an information security risk evaluation
      of NRC’s regional offices and the Technical Training Center. This report presents the
      results of the information security risk evaluation for the Region IV office, which is
      located in Arlington, Texas.

OBJECTIVES

      The Region IV information security risk evaluation objectives were to:

             Perform an independent information security risk evaluation of the NRC
             information technology (IT) security program, policies, and practices for
             compliance with the Federal Information Security Management Act (FISMA) of
             2002 in accordance with Office of Management and Budget guidance and Federal
             regulations and guidelines as implemented at Region IV.
             Evaluate the effectiveness of agency security control techniques as implemented
             at Region IV.

RESULTS IN BRIEF

      Region IV has made improvements in its implementation of NRC’s IT security program
      and practices for NRC IT systems since the previous evaluations in 2003, 2006, and
      2009. All corrective actions from the previous evaluations have been implemented.
      However, the Region IV IT security program and practices are not always consistent with
      NRC’s IT security program, as summarized below.

      Continuity of Operations and Recovery

      Backup procedures are inadequate. Specifically, backup procedures are not maintained
      and kept up-to-date and backups of NRC-managed servers are not sent to an offsite
      storage location. As a result, Region IV may not have reliable IT system backup
      information available if there is a need for system or file recovery.

      IT Security Program

      Some NRC-owned laptops do not have a current authority to operate. As a result, Region
      IV is not fully compliant with NRC requirements for laptop systems. The Region IV
      physical security plan is not up-to-date. As a result, steps or processes could be skipped
      or forgotten if personnel responsible for a particular activity are unavailable. In addition,
      outdated procedures make it more difficult when training new personnel to handle a
      specific activity.


                                                i
                                                               Information Security Risk Evaluation of
                                                                            Region IV – Arlington, TX




RECOMMENDATIONS

     This report makes recommendations to the Executive Director for Operations to improve
     NRC’s IT security program and implementation of FISMA at Region IV. A consolidated
     list of recommendations appears on page 11 of this report.

AGENCY COMMENTS

     At an exit conference on September 21, 2012, agency officials agreed with the findings
     and provided comments which were incorporated, as appropriate, into this report. The
     agency opted not to submit formal comments.




                                             ii
                                                       Information Security Risk Evaluation of
                                                                    Region IV – Arlington, TX


ABBREVIATIONS AND ACRONYMS


ATO          Authority to Operate
CSO-STD      Computer Security Office Standard
FISMA        Federal Information Security Management Act
ISSO         Information Systems Security Officer
IT           Information Technology
MD           Management Directive
NIST         National Institute of Standards and Technology
NRC          Nuclear Regulatory Commission
OIG          Office of the Inspector General
OMB          Office of Management and Budget
PG           Policy Guide
SGI          Safeguards Information
SP           Special Publication




                                     iii
                                  Information Security Risk Evaluation of
                                               Region IV – Arlington, TX




[Page intentionally left blank]




              iv
                                                                                       Information Security Risk Evaluation of
                                                                                                    Region IV – Arlington, TX


TABLE OF CONTENTS


Executive Summary ....................................................................................................... i
Abbreviations and Acronyms ..................................................................................... iii

1 Background .............................................................................................................. 1
2 Objectives ................................................................................................................. 2
3 Findings .................................................................................................................... 2
  3.1 Continuity of Operations and Recovery ........................................................ 3
            3.1.1 Region IV Servers ........................................................................................... 3
            FINDING #1: Backup Procedures Are Inadequate ...................................................................... 3
            3.1.2 Server Administration Requirements............................................................ 3
            3.1.3 Agency Has Not Fully Met Requirements ..................................................... 4
            3.1.4 Potential Risk of Server Unavailability or Data Loss ................................... 4
    3.2     Information Technology Security Program ................................................... 5
            3.2.1 Region IV Laptop Systems ............................................................................ 5
            FINDING #2: Some Laptops Do Not Have a Current Authority To Operate ............................. 6
            3.2.2 Laptop System Requirements ....................................................................... 6
            3.2.3 Agency Has Not Fully Met Requirements ..................................................... 7
            3.2.4 Regional Procedures and Instructions ......................................................... 7
            FINDING #3: Region IV Physical Security Plan Is Not Up-to-Date .......................................... 8
            3.2.5 Requirements for Updating Procedures ....................................................... 8
            3.2.6 Agency Has Not Fully Met Requirements ..................................................... 8
            3.2.7 Impact on Region IV Operations ................................................................... 9
4 Consolidated List of Recommendations ............................................................. 11
5 Agency Comments ................................................................................................ 13

Appendix.               OBJECTIVES, SCOPE, AND METHODOLOGY ......................................... 15




                                                               v
                                  Information Security Risk Evaluation of
                                               Region IV – Arlington, TX




[Page intentionally left blank]




              vi
                                                                               Information Security Risk Evaluation of
                                                                                            Region IV – Arlington, TX


1       Background

The U.S. Nuclear Regulatory Commission (NRC) has four regional offices that conduct
inspection, enforcement, investigation, licensing, and emergency response programs for nuclear
reactors, fuel facilities, and materials licensees. The regional offices are the agency’s front line
in carrying out its mission and implementing established agency policies and programs
nationwide. The Region IV office oversees regulatory activities in the western and southern
midwestern United States; is located in Arlington, Texas; and operates under the direction of a
Regional Administrator. The region covers a 22-State area, including 9 States with nuclear
power plants, as well as the U.S. Pacific territories. Region IV also oversees the Grand Gulf
Nuclear Station in Mississippi, which is located in Region II.

Office of Management and Budget (OMB) Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources, requires
agencies to implement and maintain an information technology (IT) security program, including
the preparation of policies, standards, and procedures. An effective IT security program is an
important managerial responsibility. Management establishes a positive climate by making
computer security a part of the information resources management process and providing support
for a viable IT security program.

On December 17, 2002, the President signed the E-Government Act of 2002, which included the
Federal Information Security Management Act (FISMA) of 2002. 1 FISMA outlines the
information security management requirements for agencies, which include an annual
independent evaluation of an agency’s information security program2 and practices to determine
their effectiveness. This evaluation must include testing the effectiveness of information security
policies, procedures, and practices for a representative subset of the agency’s information
systems. The evaluation also must include an assessment of compliance with FISMA
requirements and related information security policies, procedures, standards, and guidelines.
FISMA requires the annual evaluation to be performed by the agency’s Office of the Inspector
General (OIG) or an independent external auditor.3

NRC maintains an IT security program to provide appropriate protection of information
resources. In this regard, the role of the NRC OIG is to provide oversight of agency programs,
including the IT security program in support of the NRC goal to ensure the safe use of
radioactive materials for beneficial civilian purposes while protecting people and the
environment.

1
  The Federal Information Security Management Act of 2002 was enacted on December 17, 2002, as part of the
  E-Government Act of 2002 (Public Law 107-347) and replaces the Government Information Security Reform Act,
  which expired in November 2002.
2
  NRC uses the term “information security program” to describe its program for ensuring that various types of
  sensitive information are handled appropriately and are protected from unauthorized disclosure in accordance with
  pertinent laws, Executive orders, management directives, and applicable directives of other Federal agencies and
  organizations. For the purposes of FISMA, the agency uses the term IT security program.
3
  While FISMA uses the language “independent external auditor,” OMB Memorandum M-04-25, FY 2004
  Reporting Instructions for the Federal Information Security Management Act, clarified this requirement by stating,
  “Within the context of FISMA, an audit is not contemplated. By requiring an evaluation but not an audit, FISMA
  intended to provide Inspectors General some flexibility….”


                                                         1
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX




In support of its FISMA obligations, the NRC OIG tasked Richard S. Carson & Associates, Inc.,
to perform an information security risk evaluation of NRC’s regional offices and the Technical
Training Center to evaluate IT security programs in place at those locations, to include an
assessment of potential physical security weaknesses, and to identify existing problems and
make recommendations for corrective actions.

The information security risk evaluation focused on the following elements of NRC’s IT security
program, policies, and practices:

       Physical and Environmental Security Controls.
       Logical Access Controls.
       Configuration Management.
       Continuity of Operations and Recovery.
       IT Security Program.

This report presents the results of the information security risk evaluation for Region IV. A
consolidated list of recommendations appears on page 11.

2      Objectives

The Region IV information security risk evaluation objectives were to:

       Perform an independent information security risk evaluation of the NRC IT security
       program, policies, and practices for compliance with FISMA in accordance with OMB
       guidance and Federal regulations and guidelines as implemented at Region IV.
       Evaluate the effectiveness of agency security control techniques as implemented at
       Region IV.

The report appendix contains a description of the evaluation objectives, scope, and methodology.

3      Findings

Region IV has made improvements in its implementation of NRC’s IT security program and
practices for NRC IT systems since the previous evaluations in 2003, 2006, and 2009. All
corrective actions from the previous evaluations have been implemented. However, the Region
IV IT security program and practices are not always consistent with NRC’s IT security program
as defined in Management Directive (MD) and Handbook 12.5, NRC Automated Information
Systems Security Program; other NRC policies; FISMA; and National Institute of Standards and
Technology (NIST) guidance. While many of the Region IV automated and manual IT security
controls are generally effective, some IT security controls need improvement. Specifics on
continuity of operations and recovery and the Region IV IT security program are described in the
following sections.




                                                2
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX


3.1    Continuity of Operations and Recovery

Region IV procedures for maintaining continuity of operations and recovery are generally
consistent with the requirements in MD and Handbook 12.1, NRC Facility Security Program;
MD and Handbook 12.5; and NIST Special Publication (SP) 800-53, Recommended Security
Controls for Federal Information Systems. Region IV has documented backup procedures for
seat-managed servers and Region IV has developed a site-specific Occupant Emergency Plan.

However, the evaluation team found that backup procedures are inadequate. Specifically,
backup procedures are not maintained and kept up-to-date and backups of NRC-managed servers
are not sent to an offsite storage location. As a result, Region IV may not have reliable IT
system backup information available if there is a need for system or file recovery.

3.1.1 Region IV Servers

Region IV is supported by IT equipment that is both seat-managed and NRC-managed. Core
regional servers are provided and managed by the seat management contractor and include
domain controllers, mail servers, multipurpose servers, a tape server, and virtual servers. Seat-
managed servers are included in the authorization boundary of the IT Infrastructure system.
Additional regional servers are owned and managed by Region IV and include Web servers,
application servers, and servers supporting the Region IV phone system. NRC-managed servers
at Region IV are currently not included in any authorization boundary.

FINDING #1: Backup Procedures Are Inadequate

MD and Handbook 12.5, NRC standards, and NIST SP 800-53 detail requirements for certain
aspects of server administration, including backups of IT systems. However, Region IV has not
met all the requirements. Specifically, backup procedures are not maintained and kept up-to-date
and backups of NRC-managed servers are not sent to an offsite storage location. As a result,
Region IV may not have reliable IT system backup information available if there is a need for
system or file recovery.

3.1.2 Server Administration Requirements

MD and Handbook 12.5 detail requirements for backups of IT systems, and states that these
procedures should be implemented when backing up media to ensure that reliable backups are
available if there is a need for system or file recovery. These procedures include, but are not
limited to:

       Backup schedule – outlines the type of backup, the interval for each backup, the storage
       location, and the number of copies of each backup.
       Full backups – performed at least weekly.
       Incremental (differential) backups – performed nightly.
       Location of backups – at least two full backups maintained. One should remain onsite
       and a second copy should be removed to an offsite storage facility immediately after its
       creation.


                                                3
                                                                                  Information Security Risk Evaluation of
                                                                                               Region IV – Arlington, TX


           Backup media – use high-quality media to ensure good quality backups are available for
           recovery should the need arise.
           Storage of backups – store both onsite and offsite backups in a location, cabinet, or safe
           that is waterproof and fireproof for at least 14 days or as recommended by the agency.
           Testing of storage – backups are periodically tested to ensure they can be used effectively
           to restore sensitive information.

NRC Computer Security Office Standard (CSO-STD) 2002, System Back-up Standard, V1.1,
dated December 15, 2010, states backup and recovery procedures are to be developed,
documented, approved, maintained, and used for all systems operated by or on behalf of NRC.

NRC CSO-STD-2001, Operating Procedures Standard, V1.1, dated April 15, 2011, states that
documented and periodically reviewed operational procedures and responsibilities capture the
requirements for secure operation of information systems and effective management and support
of IT systems. This standard requires system owners to ensure operating procedures are
reviewed and approved on a periodic basis, at least annually.

3.1.3 Agency Has Not Fully Met Requirements

The Region IV seat-management contractor has developed backup procedures for seat-managed
servers in Region IV. These procedures are documented in “Backup Procedures,” last revised
April 2, 2012. The seat-management contractor is only responsible for performing backups of
seat-managed servers. While Region IV has developed and documented required backup
procedures, the procedures do not reflect the server infrastructure currently in place in Region
IV. For example, the backup procedures include a list of seat-managed servers covered by the
document; however, this list includes two servers that are not found in the actual backup job run
by the backup software. There are also two servers in the actual backup job that are not
referenced in the documented backup procedures. The backup procedures also still include a
reference to the previous seat-management contractor. The seat-management contract was
transitioned to the current contractor in December 2011. In addition, the current seat-
management contractor creates a Ghost4 image of every server at least once a month, and
whenever significant changes are made. However, procedures for creating Ghost images,
including where those images are stored, are not documented.

NRC staff in Region IV is responsible for performing backups of NRC-managed servers. Data
on NRC-managed servers is backed up to network attached storage. However, these procedures
are not documented. In addition, backups of NRC-managed servers are not sent to an offsite
storage location.

3.1.4 Potential Risk of Server Unavailability or Data Loss

While the backup procedures that are currently implemented should minimize data loss in the
event of a computer failure, the procedures for the seat-managed servers are not up-to-date and

4
    Ghost (general hardware-oriented system transfer) is a software product that creates full system (disk image)
    backups.


                                                            4
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX


there are no procedures for the NRC-managed servers. Software performs many of the backups
automatically, but someone must ensure the backup jobs include all required servers and run
without errors. The procedures need to be documented and current so that if the primary
personnel responsible for server administration are not available, alternates have the information
necessary to follow the procedures. Current procedures can also be useful when training new
employees with responsibilities for server administration. Backups need to be sent to an offsite
storage location to allow for recovery from situations in which the primary facility is damaged or
inaccessible. As a result, Region IV may not have reliable IT system backup information
available if there is a need for system or file recovery.

RECOMMENDATIONS

      The Office of the Inspector General recommends that the Executive Director for Operations:

      1. Update the backup procedures for seat-managed servers to (i) reflect the current Region
         IV seat-managed server infrastructure; (ii) document current backup procedures for seat-
         managed servers; (iii) document procedures for creating Ghost images, including where
         those images are stored; (iv) define the schedule for creating Ghost images; (v) correct
         references to current seat-management contractor; and (vi) correct any other sections
         impacted by the changes to the server infrastructure or the transition to the new seat-
         management contractor.
      2. Develop documented backup procedures for NRC-managed servers. The procedures
         should include the same level of detail as the backup procedures for seat-managed
         servers.
      3. Develop and implement procedures for sending backups of NRC-managed servers to an
         offsite storage location in accordance with NRC requirements.

3.2      Information Technology Security Program

Overall, Region IV is following agency security policies and procedures regarding IT security.
Region IV has developed regional policy guides that are generally up-to-date and are available
on the Region IV internal Web site. Staff receive training regarding IT security during new
employee orientation and receive a copy of the Employee IT User Manual, which includes a
section on computer security, and the Information Systems Security Officer (ISSO) sends
periodic cybersecurity reminders via e-mail on topics such as safe online shopping and phishing.
Users are generally aware of and are following agency and Region IV IT security policies and
procedures.

However, the evaluation team found issues with the Region IV laptop systems and with keeping
Region IV IT security program procedures up-to-date.

3.2.1 Region IV Laptop Systems

Laptops in use at Region IV are either seat-managed laptops or NRC-owned laptops. Seat-
managed laptops in use at Region IV include those laptops that are part of the agency’s new
working from anywhere/mobile desktop program. NRC-owned laptops in use at Region IV


                                                 5
                                                                    Information Security Risk Evaluation of
                                                                                 Region IV – Arlington, TX


include loaner laptops, laptops in conference rooms and training rooms, and laptops used to
process safeguards information (SGI).

FINDING #2: Some Laptops Do Not Have a Current Authority To Operate

The NRC Laptop Security Policy, which specifies the requirements for authorization of laptop
systems, states that all NRC laptops must be either designated a system or included as part of an
existing system. NRC-owned laptops in use at Region IV include loaner laptops, laptops in
conference rooms and training rooms, and laptops used to process SGI. However, the evaluation
team found that some NRC-owned laptops do not have a current authority to operate (ATO). As
a result, Region IV is not fully compliant with NRC requirements for laptop systems.

3.2.2 Laptop System Requirements

The NRC Laptop Security Policy states that all NRC laptops must either be designated a system
or be included as part of an existing system. All laptops that are not seat-managed are
considered to be organization-managed, i.e., NRC-owned. All NRC-owned laptops that process
or access classified national security information belong to that office’s or region’s “Classified
Laptop System.” All NRC-owned laptops that process or access SGI and are not part of the
office’s or region’s “Classified Laptop System” belong to that entity’s “SGI Laptop System.”
All NRC-owned laptops that are not part of the office’s or region’s “Classified Laptop System”
or the office’s or region’s “SGI Laptop System” belong to that entity’s “General Laptop
System.”

The NRC Laptop Security Policy also specifies the following requirements for authorization
(formerly referred to as accreditation):

       Laptop systems must meet the requirements provided in the relevant standard security
       plan. There is a different standard security plan for classified, SGI, and general laptops.
       Laptop systems must be certified by the system owner as compliant with the relevant
       laptop system requirements.
       Laptop systems must be accredited by the appropriate Designated Approving Authority
       prior to processing any relevant (i.e., classified, SGI, sensitive unclassified) information
       on the system.
       Certification of a laptop system requires a system certification memorandum from the
       laptop system owner. The memorandum must include an enclosure that provides the
       names and contact information for the System Owner, Certification Agent, ISSO,
       Alternate ISSO, and System Administrator.
       For each laptop or removable hard drive that is part of the laptop system, the enclosure
       must provide information such as physical storage location, location where system is
       used, brand, model, tag number, peripherals, etc.




                                                 6
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX


3.2.3 Agency Has Not Fully Met Requirements

Region IV has not established a general laptop system, which would include their loaner laptops
and laptops found in conference rooms and training rooms. In addition, Region IV has one SGI
laptop (and four standalone desktops) still on the NRC inventory of systems and a system called
the Region IV SGI Automated Inventory System. The NRC inventory indicates five of these
systems have an authorization to operate that expired in March 2009 and the Region IV SGI
Automated Inventory System never had an authorization to operate. During the site visit to
Region IV, the evaluation team was unable to determine whether any of the SGI systems on the
NRC inventory were still in use and therefore should be covered under a Region IV SGI laptop
system with a current ATO. Subsequent to the site visit, Region IV informed the evaluation
team that SGI laptops and standalone desktops are no longer in use and are in the process of
being decommissioned. Therefore, there is no need for Region IV to establish a Region IV SGI
laptop system to cover these systems.

RECOMMENDATION

   The Office of the Inspector General recommends that the Executive Director for Operations:

   4. Establish a general laptop system and complete the process described in the NRC Laptop
      Security Policy for authorization of the general laptop system.

3.2.4 Regional Procedures and Instructions

Region IV uses regional office policy guides and notices to inform the staff of regional policies,
procedures, and guidance, including those specific to the Region IV IT security program. Policy
guides contain instructions, policies, procedures, or guidance intended to be of a permanent
nature, remain in effect until they are revised or cancelled, and must be updated within 3 years of
the date of issuance to ensure all information remains current. Regional notices contain
information of a temporary nature and are intended to keep the staff informed, but do not
establish comprehensive policy for the staff to follow. All notices contain an expiration date that
does not exceed 6 months from the date of issuance. For both policy guides and notices, the
originating division is responsible for ensuring their assigned documents are current.

The following are some examples of regional policy guides specific to the Region IV IT security
program:

       Policy Guide (PG) 0754.2, Physical Security Plan, dated August 30, 2011 – describes the
       policies, procedures, and responsibilities for assuring protection of information, property
       and employees at Region IV.
       PG 0253-5, Computer User’s Guide, dated April 19, 2012 – establishes guidelines for
       maintaining computer security and the general use of government computer resources in
       Region IV.
       PG 0759.3, Region IV Security Program, dated January 19, 2011 – establishes the overall
       structure and policy for all elements of the Region IV security programs.



                                                 7
                                                                                  Information Security Risk Evaluation of
                                                                                               Region IV – Arlington, TX


FINDING #3: Region IV Physical Security Plan Is Not Up-to-Date

NRC has developed several security standards that specify the frequency of reviewing and
updating IT security program procedures. However, the Region IV physical security plan is not
up-to-date. As a result, steps or processes could be skipped or forgotten if personnel responsible
for a particular activity are unavailable. In addition, outdated procedures make it more difficult
when training new personnel to handle a specific activity.

3.2.5 Requirements for Updating Procedures

NRC CSO-STD-0020, Organization Defined Values for System Security Controls, Revision 1.1,
dated July 1, 2012, defines the mandatory values for specific controls in the 18 security control
families described in NIST SP 800-53. The standard requires that documented procedures to
facilitate the implementation of a control should be reviewed and updated annually. The
standard also requires system owners to review system security plans at least annually and
update them to address changes to the information system and/or environment of operation.
NRC CSO-STD-2001 states that documented and periodically reviewed operational procedures
and responsibilities capture the requirements for secure operation of information systems and
effective management and support of IT systems. This standard requires system owners to
ensure operating procedures are reviewed and approved on a periodic basis, at least annually.

PG 0001.11, RIV Policy Guide and Office Notice System, dated January 9, 2006, describes the
system for initiating, revising, and deleting regional office policy guides and notices. PG
0001.11 requires policy guides to be updated within 3 years of the date of issuance to ensure all
information remains current.

3.2.6 Agency Has Not Fully Met Requirements

Region IV has developed several regional policy guides specific to the Region IV IT security
program. However, the evaluation team found that the Region IV physical security plan is not
up-to-date. For example, several sections need to be updated to reflect the new office location.
Region IV moved from 612 East Lamar Boulevard to 1600 East Lamar Boulevard in December
2011. The document also does not describe the current access control procedures for visitors.
Some of the functions described in this document are now performed by the security guards5 and
a different form is used for visitor registration. This document is being updated and is currently
under review with headquarters and Region IV executives. However, Region IV has not
established a target completion date for the update.

PG 0001.11 requires policy guides to be updated within 3 years of the date of issuance to ensure
all information remains current. However, per NRC security standards, some procedures require
more frequent review and update – at least annually for documented procedures to facilitate the
implementation of security controls in the 18 security control families described in NIST SP 800-
53 and for operational procedures that capture the requirements for secure operation of
information systems and for effective management and support of IT systems.


5
    Region IV contracts through the Federal Protective Service for security guard services.


                                                            8
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX


3.2.7 Impact on Region IV Operations

Outdated procedures can result in steps or processes being skipped or forgotten if personnel
responsible for a particular activity are unavailable. In addition, outdated procedures make it
more difficult when training new personnel to handle a specific activity. Current procedures
ensure continuity in performing a specific IT security function in the event of staff turnover and
are excellent for training new personnel and an excellent reference for existing personnel.

RECOMMENDATIONS

   The Office of the Inspector General recommends that the Executive Director for Operations:

   5. Update PG 0754.2, Physical Security Plan, to reflect the new office location, describe the
      current access control procedures for visitors, and describe functions now performed by
      the security guards.
   6. Update PG 0001.11, RIV Policy Guide and Office Notice System, to specify which
      regional policy guides require annual review and update.




                                                 9
                                  Information Security Risk Evaluation of
                                               Region IV – Arlington, TX




[Page intentionally left blank]




              10
                                                                  Information Security Risk Evaluation of
                                                                               Region IV – Arlington, TX


4      Consolidated List of Recommendations

The Office of the Inspector General recommends that the Executive Director for Operations:

    1. Update the backup procedures for seat-managed servers to (i) reflect the current Region
       IV seat-managed server infrastructure; (ii) document current backup procedures for seat-
       managed servers; (iii) document procedures for creating Ghost images, including where
       those images are stored; (iv) define the schedule for creating Ghost images; (v) correct
       references to current seat-management contractor; and (vi) correct any other sections
       impacted by the changes to the server infrastructure or the transition to the new seat-
       management contractor.
    2. Develop documented backup procedures for NRC-managed servers. The procedures
       should include the same level of detail as the backup procedures for seat-managed
       servers.
    3. Develop and implement procedures for sending backups of NRC-managed servers to an
       offsite storage location in accordance with NRC requirements.
    4. Establish a general laptop system and complete the process described in the NRC Laptop
       Security Policy for authorization of the general laptop system.
    5. Update PG 0754.2, Physical Security Plan, to reflect the new office location, describe the
       current access control procedures for visitors, and describe functions now performed by
       the security guards.
    6. Update PG 0001.11, RIV Policy Guide and Office Notice System, to specify which
       regional policy guides require annual review and update.




                                               11
                                  Information Security Risk Evaluation of
                                               Region IV – Arlington, TX




[Page intentionally left blank]




              12
                                                              Information Security Risk Evaluation of
                                                                           Region IV – Arlington, TX


5   Agency Comments

    At an exit conference on September 21, 2012, agency officials agreed with the findings
    and provided comments which were incorporated, as appropriate, into this report. The
    agency opted not to submit formal comments.




                                           13
                                  Information Security Risk Evaluation of
                                               Region IV – Arlington, TX




[Page intentionally left blank]




              14
                                                                   Information Security Risk Evaluation of
                                                                                Region IV – Arlington, TX


Appendix.         OBJECTIVES, SCOPE, AND METHODOLOGY

OBJECTIVES

The Region IV information security risk evaluation objectives were to:

        Perform an independent information security risk evaluation of the NRC IT security
        program, policies, and practices for compliance with FISMA in accordance with OMB
        guidance and Federal regulations and guidelines as implemented at Region IV.
        Evaluate the effectiveness of agency security control techniques as implemented at
        Region IV.

SCOPE

The scope of this information security risk evaluation included:

        The four floors Region IV occupies at 1600 E. Lamar Boulevard, Arlington, Texas
        76011-4511.
        Region IV seat-managed equipment.
        Region IV NRC-managed equipment.

The information security risk evaluation did not include controls related to the management of
safeguards or classified information.

The evaluation work was conducted during a site visit to Region IV in Arlington, TX, between
September 17, 2012, and September 21, 2012. Any information received from the agency
subsequent to the completion of fieldwork was incorporated when possible. Throughout the
evaluation, evaluators were aware of the potential for fraud, waste, or misuse in the program.

METHODOLOGY

Richard S. Carson & Associates, Inc., conducted a high-level, qualitative evaluation of the NRC
IT security program, policies, and practices as implemented at Region IV, and evaluated the
effectiveness of agency security control techniques as implemented at Region IV.

In conducting the information security risk evaluation, the following areas were reviewed:
physical and environmental security controls, logical access controls, configuration management,
continuity of operations and recovery, and IT security program. Specifically, the evaluation
team conducted site surveys of the four floors Region IV occupies at 1600 E. Lamar Boulevard,
Arlington, Texas 76011-4511, focusing on the areas that house IT equipment. The team
conducted interviews with the Region IV ISSO, the seat-management server administrator, the
Region IV server administrator, and other Region IV staff members responsible for
implementing the agency’s IT security program at Region IV. The evaluation team also
conducted user interviews with 14 Region IV employees, including two Resident Inspectors and
two teleworkers. The team reviewed documentation provided by Region IV including floor



                                                15
                                                                  Information Security Risk Evaluation of
                                                                               Region IV – Arlington, TX


plans, inventories of hardware and software, local policies and procedures, security plans,
backup procedures, contingency plans, and the Occupancy Emergency Plan. The information
security risk evaluation also included a network vulnerability assessment scan of the Region IV
network and the Region IV Resident Inspector sites.

All analyses were performed in accordance with guidance from the following:

       NIST standards and guidelines.
       NRC MD and Handbook 12.5, NRC Automated Information Security Program.
       NRC Computer Security Office policies, processes, procedures, standards, and
       guidelines.
       NRC OIG audit guidance.

The work was conducted by Jane M. Laroussi, CISSP, CAP, GIAC ISO-17799, and Diane
Reilly, from Richard S. Carson & Associates, Inc.




                                               16
